TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Correspondence Imaging System Helps
                  to Manage Taxpayer Correspondence, but
                  There Are Delays in the Scanning Process



                                          March 9, 2007

                              Reference Number: 2007-40-047




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            March 9, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Correspondence Imaging System Helps to
                             Manage Taxpayer Correspondence, but There Are Delays in the
                             Scanning Process (Audit # 200640024)

 This report presents the results of our review of the Correspondence Imaging System (CIS). The
 overall objectives of this review were to determine the timeliness and accuracy of processing
 taxpayer correspondence and other cases through the CIS and to determine whether the System is
 functioning as intended.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) receives more than 10 million pieces of paper
 correspondence within the Adjustments function each year. Prior to implementation of the CIS,
 this correspondence was routed manually to IRS employees, which sometimes resulted in delays
 and misrouted or lost cases. With this System, each piece of correspondence is scanned and
 made available electronically to the IRS employee working the case. While the CIS helps
 manage and control the inventory of taxpayer correspondence, not all correspondence is scanned
 in timely, which results in delayed case resolution and thus untimely service to taxpayers.

 Synopsis
 The CIS was designed to automate the handling of taxpayer-generated correspondence by having
 paper documents scanned into the System. Customer service representatives are assigned to
 work the cases and access the scanned documents to complete necessary case actions. In
 addition to controlling and organizing correspondence, the System automatically generates
 letters to taxpayers acknowledging receipt of their correspondence and inputs necessary actions
                               The Correspondence Imaging System Helps
                           to Manage Taxpayer Correspondence, but There Are
                                    Delays in the Scanning Process


to the IRS Integrated Data Retrieval System1 to stop any balance due notices from being issued
while the cases are being worked. The CIS was piloted at the Accounts Management site in
Austin, Texas, beginning in November 2003 and has since been implemented at five other
Accounts Management sites, with the implementation at the four remaining sites beginning in
Fiscal Year 2006.
Generally, once correspondence is scanned and imaged into case files, the System is providing
the benefits the IRS expected. The CIS has provided the Accounts Management function with
better case inventory management information. Interim letters have been generated properly and
timely for timely scanned cases, and appropriate actions have been input to the Integrated Data
Retrieval System for these cases.
However, delays in scanning and inaccurate and incomplete data reduced some of the anticipated
System benefits. We analyzed the CIS database to identify trends in processing timeliness and
reviewed a judgmental sample of 193 cases from 3 Accounts Management sites to analyze
database accuracy. Overall, correspondence cases were controlled timely (input to the System so
the cases could be located) approximately 80 percent of the time, which is not a significant
increase when compared to the manual process timeliness rate (approximately 79 percent) used
as a baseline in the CIS Business Case. Moreover, when considering the average for all types of
correspondence (including amended returns and claims), only 62 percent of all cases had been
controlled within 14 calendar days. Database input errors also occurred in approximately
18 percent of the cases we sampled, with 11 percent having inaccurate information and 7 percent
having incomplete information.
We identified several potential causes for the processing delays and errors in inputting cases to
the CIS database.
     • Inconsistent System procedures, such as use of an Image Control Team (ICT) Received
       Date stamp at only three of six Submission Processing sites.
     • No formal quality review procedures for verifying the accuracy of data input.
     • Lack of resource monitoring to ensure a sufficient number of employees are assigned to
       the ICT unit document preparation and scanning process.
     • Inconsistent procedures at the Submission Processing sites using the CIS that do not
       ensure timely processing of expedited cases, such as carryback loss and disaster claims.
Furthermore, we believe the IRS should consider allowing taxpayers to submit correspondence
electronically via the Internet, thereby reducing or eliminating the need to handle and scan paper
documents. In addition to saving considerable time and cost for the IRS to resolve taxpayer
correspondence, this feature would eliminate the need for taxpayers to print and mail

1
  The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer’s account records.
                                                                                                             2
                           The Correspondence Imaging System Helps
                       to Manage Taxpayer Correspondence, but There Are
                                Delays in the Scanning Process


correspondence. It would also allow taxpayers to receive immediate acknowledgement that the
IRS had received their inquiries or claims.

Recommendations
We recommended the Director, Accounts Management, add an ICT Received Date field to the
CIS database and require date stamps to be used at all the CIS Submission Processing sites to
record the ICT Received Date. The Director, Accounts Management, also should expand the
14 calendar-day requirement for scanning and controlling taxpayer correspondence to include all
documents input to the System. The Commissioner, Wage and Investment Division, should
consider allowing taxpayers to submit correspondence electronically.

Response
IRS management agreed with one of our three recommendations and disagreed with the other
two. The IRS agreed that adding the ICT Received Date field is a good idea and will study the
feasibility of adding this additional field to the CIS database. The IRS also agreed to use ICT
Received Date stamps, and it has already updated its internal procedures for this
recommendation. IRS management disagreed with our recommendation to expand the
14 calendar-day requirement for scanning and controlling all documents input to the CIS, but it
has implemented new procedures to route all amended returns that clearly include carryback loss
claims directly to the Accounts Management function and has agreed to emphasize the
importance of controlling all cases within 14 calendar days as much as possible. The IRS agreed
in concept to allow taxpayers to submit correspondence electronically but disagreed that our
recommendation was feasible to implement now or in the foreseeable future. The IRS stated
implementing this recommendation would require extensive modification of all existing internal
processes and systems related to taxpayer correspondence. Current Modernization plans do not
include this capability, and pursuit of other priority projects will likely prevent consideration of
such a system for the foreseeable future. Management’s complete response to the draft report is
included as Appendix IV.

Office of Audit Comments
We agree that the new IRS procedures to route all carryback claims directly to the Accounts
Management function should reduce the time to work these claims. While we generally concur
with IRS management’s plans to emphasize the controlling of all cases within 14 calendar days
as much as possible, we continue to believe that making this a written requirement would
emphasize management’s commitment to timely customer service and ensure all employees are
aware of the importance of timely case control. Knowing the volume of cases could at times
preclude meeting this requirement does not diminish the need to set this expectation clearly. The
IRS did not state specifically how it intended to emphasize the importance of timely controlling
cases, but we encourage the IRS to make this a written expectation, so all employees are aware
                                                                                                   3
                           The Correspondence Imaging System Helps
                       to Manage Taxpayer Correspondence, but There Are
                                Delays in the Scanning Process


of this important criteria and so IRS management can monitor whether this requirement is being
met effectively.
We also acknowledge there will be some technical and privacy considerations to address to allow
taxpayers to correspond directly with the IRS, but we disagree with IRS management’s assertion
that this concept is not feasible now or in the foreseeable future. The IRS should be striving to
make it as easy as possible for taxpayers to correspond with the IRS. Providing a method for
customers to submit questions and correspondence via a webpage is a common application for
banks and other financial institutions. The IRS currently offers certain tax practitioners the
ability to submit correspondence and account questions electronically through its e-Services
application. We understand that offering this service to all taxpayers would involve overcoming
technical barriers, but we would expect the IRS to pursue this ability as part of its Modernization
strategy, especially with its push to get more taxpayers to use the IRS.gov web site. We
encourage the IRS to reconsider and take action to include this type of capability in its
Modernization strategy.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                 4
                                   The Correspondence Imaging System Helps
                               to Manage Taxpayer Correspondence, but There Are
                                        Delays in the Scanning Process




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Correspondence Imaging System Has Improved
          the Ability to Manage Taxpayer Correspondence ........................................Page 4
          There Were Delays in Scanning Some Taxpayer Correspondence
          Into the Correspondence Imaging System ....................................................Page 5
                    Recommendation 1:........................................................Page 8

                    Recommendation 2:........................................................Page 9

          The Correspondence Imaging System Includes Inaccurate and
          Incomplete Data ............................................................................................Page 9
          Electronic Submission of Taxpayer Correspondence Would
          Help Improve the Efficiency and Timeliness of Case Resolution................Page 10
                    Recommendation 3:........................................................Page 12

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 13
          Appendix II – Major Contributors to This Report ........................................Page 16
          Appendix III – Report Distribution List .......................................................Page 17
          Appendix IV – Management’s Response to the Draft Report ......................Page 18
          The Correspondence Imaging System Helps
      to Manage Taxpayer Correspondence, but There Are
               Delays in the Scanning Process




                Abbreviations

CIS       Correspondence Imaging System
ICT       Image Control Team
IRS       Internal Revenue Service
                               The Correspondence Imaging System Helps
                           to Manage Taxpayer Correspondence, but There Are
                                    Delays in the Scanning Process




                                            Background

The Correspondence Imaging System (CIS) is a new
system used to scan and convert incoming taxpayer             The CIS was implemented to
                                                                automate the handling of
correspondence into digital images. This                     taxpayer correspondence and
correspondence includes taxpayer-generated letters,         thus improve inventory controls
responses to tax notices, amended tax returns, and           and reduce the time needed to
claims for carryback losses and disaster losses that are              resolve cases.
worked by customer service representatives in the
Adjustments function within the Wage and Investment Division Accounts Management function.
The CIS puts the scanned images into electronic case folders, which can be easily accessed and
worked by customer service representatives. When the CIS is fully implemented, customer
service representatives nationwide will have universal access to the imaged cases.
The volume of incoming taxpayer correspondence is substantial. During both Fiscal Years 2004
and 2005, the Internal Revenue Service (IRS) received more than 10 million pieces of paper
correspondence within the Adjustments function to be worked by customer service
representatives. Mail is received at the Submission Processing sites and is sorted and routed to
its destination. Generally, unless taxpayer correspondence is addressed to a specific person or
function, it is routed to the Adjustments function for resolution.
Prior to implementation of the CIS, correspondence was physically transported to the
Adjustments function, possibly in a building separate from the Submission Processing site. Once
the correspondence was received in the Adjustments function, clerical staff performed additional
sorting, batching, routing, and classifying; recorded receipts for inventory reports; and controlled
cases on the Integrated Data Retrieval System.1 IRS managers then assigned cases to customer
service representatives to research and resolve within 30 calendar days of receipt. For cases that
could not be closed within 30 calendar days, interim letters were to be sent to the taxpayers
providing the status of their cases. IRS managers manually monitored inventory levels with a
goal of keeping the age of cases in inventory below 45 calendar days (the Fiscal Year 2006 goal
was to keep 85 percent to 90 percent of the inventory below 45 calendar days old 80 percent of
the time). Closed cases were either shipped to the File areas to be stored or destroyed if there
was no need to maintain the paper documents.
This manual system made it difficult to meet the IRS’ goal of resolving taxpayer inquiries,
claims, and requests for adjustments timely. In addition, misplaced or misrouted paper
documents often further delayed resolution of taxpayer cases and resulted in additional contacts

1
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 1
                                  The Correspondence Imaging System Helps
                              to Manage Taxpayer Correspondence, but There Are
                                       Delays in the Scanning Process



from taxpayers inquiring about their cases. Taxpayers often would make multiple contacts with
the IRS, either through written correspondence or telephone calls. Putting these contacts
together into one case file was difficult, time consuming, and sometimes not even possible.
With implementation of the CIS, correspondence is routed to an Image Control Team (ICT) unit,
where the paper documents are scanned into the CIS and are accessible by taxpayer Social
Security Number. A customer service representative can then work from an electronic image
and workflow management system using the same workstation he or she uses to access the
Integrated Data Retrieval System. While some manual processing of the correspondence is still
needed (such as the disassembly, association, and scanning of documents into the CIS), other
clerical, routing, and management functions have been automated.
The IRS stated the CIS provided the following primary benefits:
       •   Enables customer service representatives at different locations to access information
           needed to resolve a taxpayer’s case.
       •   Reduces the time it takes correspondence to reach the customer service representatives
           for resolution. It is expected that implementation of the CIS, with its enhanced inventory
           management tools, will reduce Adjustments function over-age inventories.
       •   Provides enhanced ability to balance Adjustments function workload among Submission
           Processing sites so, if necessary, imaged cases can be systemically routed to other
           Submission Processing sites based on predetermined business rules. This ability to easily
           transfer work among Submission Processing sites makes it possible for the IRS to
           balance inventory for faster resolution or to recover from a disruption, such as a natural
           disaster, at a particular Submission Processing site.
       •   Provides an inventory management system that allows for more immediate analysis and
           control of the workload. It enhances workload management by tracking and monitoring
           inventory and receipts in real-time and makes available up-to-the-minute reports for any
           level of the organization by document type and age.
       •   Provides for automatic generation and recordation of interim letters when cases are not
           resolved within 30 calendar days of receipt.
       •   Allows customer service representatives to access closed case images to assist with
           subsequent taxpayer contacts.
The CIS was piloted at the Accounts Management site in Austin, Texas, beginning in
November 2003 and was rolled out to the sixth Individual Master File2 Accounts Management
site in Fresno, California, in July 2005. In Fiscal Year 2006, the IRS continued implementing
the CIS at the remaining four Accounts Management sites. The IRS plans to upgrade the System

2
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                 Page 2
                                The Correspondence Imaging System Helps
                            to Manage Taxpayer Correspondence, but There Are
                                     Delays in the Scanning Process



by converting from Microsoft Windows to a UNIX3 platform that will increase the speed of
access for users. This upgrade is scheduled for January 2008.
This review was performed at the Submission Processing sites and Accounts Management sites
in Austin, Texas; Atlanta, Georgia; and Fresno, California, and at the offices of the
CIS administrators in Austin during the period February through June 2006. The audit was
conducted in accordance with Government Auditing Standards. The completion of our audit was
delayed approximately 3 months because we experienced difficulty in obtaining a partial copy of
the CIS database. The issues related to the IRS’ concern about the security of the CIS data after
being provided to the Treasury Inspector General for Tax Administration and the technical
problems associated with creating, moving, and storing the copy of the database. The data were
ultimately provided by the contractor at the direction of the IRS. Detailed information on our
audit objectives, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




3
    The UNIX is a computer operating system.
                                                                                          Page 3
                           The Correspondence Imaging System Helps
                       to Manage Taxpayer Correspondence, but There Are
                                Delays in the Scanning Process




                                Results of Review

The Correspondence Imaging System Has Improved the Ability to
Manage Taxpayer Correspondence
Generally, once correspondence is scanned and imaged into case files, the CIS is providing the
benefits the IRS expected. The System has provided managers at the Accounts Management
sites with better inventory management information on Adjustments function cases. The Pilot
Evaluation of the Austin Accounts Management site determined the real-time CIS reports
provided management flexibility in monitoring performance and in identifying cases that needed
to be reassigned or prioritized. All levels of management used these reports daily to track
closures, age of closed cases, and receipts. We observed that cases could be viewed and worked
using the CIS at any of the three Accounts Management sites we reviewed. At the time of our
review, the System had not been fully implemented in all Accounts Management sites; therefore,
we were unable to evaluate its use to balance workload among all Accounts Management sites.
After cases are input and controlled on the CIS so they can be assigned to customer service
representatives for resolution, management can access overall case statistics and use the
information for management decisions. Case assignments can be made either automatically or
manually and can be changed depending on workload and resource factors. IRS managers we
interviewed at the three Accounts Management sites stated these features have significantly
improved their ability to efficiently manage their workloads.
The CIS automatically generates (1) interim letters to acknowledge receipt of taxpayer
correspondence and (2) Integrated Data Retrieval System actions to prevent the issuance of
balance-due notices. Taxpayers who write to the IRS with a question need to know their
inquiries have been received, and those writing in response to a balance-due notice should not
receive additional notices while their inquiries are being processed. Our database analysis of
over 150,000 taxpayer-generated letters on the CIS determined (1) interim letters to taxpayers
were issued properly and timely when taxpayer-generated letters were scanned timely into the
System and (2) necessary actions, including a record of the interim letters, were taken
automatically and entered on the Integrated Data Retrieval System for these cases.
Prior to implementation of the CIS, correspondence was either destroyed after resolution or kept
as a paper document and filed in a warehouse. Requesting and receiving a document from paper
files usually takes a minimum of 1 week and can take much longer. An employee must input a
request on the Integrated Data Retrieval System; then a request for the document is printed out
where the files are maintained and a clerk searches for the document and forwards it to the
employee. Documents are filed according to Document Locator Number, a unique

                                                                                          Page 4
                              The Correspondence Imaging System Helps
                          to Manage Taxpayer Correspondence, but There Are
                                   Delays in the Scanning Process



14 digit number assigned to every tax document that can be easily transposed or otherwise input
incorrectly. A document could already be “charged out” by another requester while an image
can be accessed by any number of employees simultaneously.
In contrast, cases are archived electronically in the CIS, resulting in easy access to cases that
have been worked previously. The System currently keeps all cases available for immediate
access. Cases are maintained according to established document retention criteria, and closed
cases can be accessed easily. The users we interviewed all agreed the ability to research closed
cases is a valuable tool. For example, a taxpayer may write to the IRS to provide additional
documentation if his or her initially requested action has been disallowed due to missing
information such as a dependent’s Social Security Number or birth certificate. Employees save
substantial time when they can access a taxpayer’s previous inquiry electronically rather than
having to wait for a paper document to be retrieved or having to contact the taxpayer regarding
his or her previous case.
There Were Delays in Scanning Some Taxpayer Correspondence Into
the Correspondence Imaging System
Notwithstanding the benefits of the CIS, delays in scanning correspondence into the System can
affect the timely resolution of taxpayer inquiries and claims. The IRS Restructuring and Reform
Act of 19984 requires the IRS to provide final responses to taxpayers by the 30th calendar day
from the earliest IRS Received Date. If there is a delay of more than 30 calendar days in
resolving the taxpayer’s inquiry or claim, an interim letter should be sent to the taxpayer
explaining that the IRS has received the correspondence and is working on the appropriate
corrective action. To facilitate the timely resolution of taxpayer inquiries and claims, the IRS
requires taxpayer-generated letters to be controlled within 14 calendar days of receipt. These
requirements are intended to ensure timely case resolution and availability of case information to
respond to additional taxpayer inquiries. However, the IRS did not always meet these time
periods.
We analyzed CIS data for all taxpayer-generated letters received between
October 1, 2005, and March 31, 2006, for the four Submission Processing sites5 (located in
Andover, Massachusetts; Atlanta, Austin, and Kansas City, Missouri) that had been using the
System since at least April 2005. Approximately 80 percent of the letters had been controlled
within the 14 calendar-day requirement. The manual processing timeliness rate for the
14 calendar-day requirement, which was used as a baseline for the CIS Business Case, was
approximately 79 percent. Thus, at the time of our review, the timeliness rate for inputting cases


4
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
5
  The Fresno Submission Processing Site began using the CIS after April 2005; we omitted it from our sample due
to the short time prior to the October 1, 2005, starting date for the letters we reviewed.
                                                                                                         Page 5
                                  The Correspondence Imaging System Helps
                              to Manage Taxpayer Correspondence, but There Are
                                       Delays in the Scanning Process



on the CIS had not improved significantly over that produced by the prior manual system for
recording case information from incoming taxpayer letters. Moreover, when considering the
average for all types of correspondence (including amended returns and claims), only 62 percent
of all CIS cases had been controlled within 14 calendar days.6 Figure 1 shows the timeliness
rates for inputting and controlling taxpayer correspondence.
                               Figure 1: Case Timeliness Comparisons

                                            Processing Timeliness
                            100%
                             90%
                                              79%                     80%
                             80%
              Percentage
                             70%
                                                                                             62%
               of Cases      60%
               Input and     50%
               Conrolled     40%
             Within 14 Days
                             30%
                             20%
                             10%
                              0%
                                        Manual Process -         CIS - Taxpayer            CIS - All
                                        Taxpayer Letters            Letters            Correspondence
                                           (Baseline)                                       Types

                                                    Process and Correspondence Type

            Source: Treasury Inspector General for Tax Administration analysis of CIS cases – October 2005
            through March 2006.

The lower average timeliness rate for all types of incoming correspondence appears to be due to
a lack of defined criteria for certain types of cases. While there is a 14 calendar-day requirement
for inputting and controlling taxpayer-generated letters, there is no calendar-day requirement for
assigning other types of cases, such as amended tax returns or carryback loss claims. Scanning
documents timely enables customer service representatives to access the cases sooner and
facilitates timely resolution of the taxpayers’ inquiries or claims. Because the IRS’ goal is to
resolve all taxpayer inquiries and adjustments within 30 calendar days, having case control
timeliness requirements for all types of cases, not just taxpayer-generated letters, appears to be
warranted. In addition to providing good customer service, timely resolution of taxpayer issues
becomes even more critical when dealing with amended tax returns and carryback loss claims



6
    The IRS had no baseline timeliness rate for the manual processing of all types of correspondence.
                                                                                                             Page 6
                           The Correspondence Imaging System Helps
                       to Manage Taxpayer Correspondence, but There Are
                                Delays in the Scanning Process



because these types of cases could involve refunds on which the IRS may have to pay interest if
the cases are not processed timely.
Additional costs resulted from the untimely processing of carryback loss claims
When taxpayers incur significant losses from business activities or natural disasters, to the extent
that their deductions exceed their income, they can opt to carry back the losses to prior tax years
and obtain refunds of taxes paid in those prior years by filing an Application for Tentative
Refund (Form 1045) or an Amended U.S. Individual Income Tax Return (Form 1040X),
depending on their situations.
The IRS must pay interest on a refund claimed if the refund is not issued within 45 calendar days
of the received date of the Form or the due date of the loss year’s return, whichever is later. A
1-day delay in processing a refund check could mean the difference between paying no interest
and paying a potentially significant amount of interest. For example, if a taxpayer files a claim
that creates a potential refund of $1 million and the IRS timely processes the claim within
45 calendar days and issues the refund, the taxpayer receives the refund with no interest.
However, issuing the refund on the 46th day causes the IRS to pay the refund with approximately
$179,000 in interest. Consequently, timely processing of these cases is a priority.
Of the 22,563 carryback loss cases received from October 1, 2005, to March 31, 2006, in the
Andover, Atlanta, Austin, and Kansas City Submission Processing Sites, 20 percent were not
controlled within 14 calendar days. To evaluate the risk of additional interest costs associated
with delays in processing these claims, we selected from the 22,563 carryback loss cases a
separate, statistically valid sample of 138 carryback loss cases processed on the CIS that were
received and closed during the period October 1, 2005, to March 31, 2006. On 23 cases
(17 percent), approximately $19,000 in interest was paid due, in part, to the cases not being input
and controlled timely. One of the contributing causes for the delays was that not all carryback
loss claims were identified properly when first received, and the cases were sent to areas where
the employees were not trained to work carryback loss claims. The cases had to be rerouted to
the appropriate ICT unit for input to the CIS.
Process monitoring for the CIS needs to be improved
Procedures require each piece of correspondence to be
scanned into the CIS within 5 calendar days of the date
on which it is received in the ICT unit (this is called the  There is no data field in the CIS
ICT Received Date). However, limitations prevent                   database that allows
effective monitoring by management to ensure timely            management    to evaluate and
input. Only three of the six Submission Processing sites              correct delays.
with the CIS use a date stamp to record this Date on the
cases. Moreover, regardless of whether date stamps are used to record the ICT Received Date on
the paper correspondence, the CIS database does not contain a field for recording that Date.


                                                                                             Page 7
                              The Correspondence Imaging System Helps
                          to Manage Taxpayer Correspondence, but There Are
                                   Delays in the Scanning Process



Without this, it is difficult for the IRS to determine whether delays are in the routing process, in
the scanning process, or caused by scheduling and/or staffing problems.
The procedures and additional resources required to prepare, sort, and scan cases into the CIS
may not be adequate to ensure timely processing as envisioned by its Business Case. Significant
manual processing is still required to get paper correspondence ready for the System. Paper
correspondence must be disassembled with all staples removed, pages must be smoothed for
scanning, and separation sheets must be inserted. The time and resource requirements for these
actions vary with the workload. Based on results of the CIS Pilot in Austin, the IRS initially
estimated the resources needed to adequately staff the ICT units to ensure all correspondence is
scanned timely. However, the IRS has not reevaluated the resource requirements to ensure
staffing is commensurate with the actual workload.
Untimely scanning can cause delays in case assignment and resolution and/or issuance of interim
letters (to update the taxpayers on the status of their cases). Many CIS benefits are not realized
when cases are not scanned and controlled timely. This reduces the ability of management to
monitor inventory levels and hinders the ability of employees to respond to taxpayer inquiries
adequately.
Management Actions: In response to a recently issued Treasury Inspector General for Tax
Administration audit of carryback loss claims,7 the IRS stated it planned to implement
prescreening of all Forms 1040X with a carryback loss claim. These claims are to be routed
directly to the Accounts Management function. This is consistent with existing instructions to
expedite the routing of Forms 1045. Also, based on our prior report, the CIS now requires that a
priority code be input for every carryback loss claim on the System.
Recommendations
Recommendation 1: To allow management to track and analyze the timeliness of CIS
processing and help management determine if scanning delays are caused by insufficient
resources in the ICT units or delays in forwarding correspondence to the ICT units, the
Director, Accounts Management, should add an ICT Received Date field to the CIS database and
require date stamps to be used at all CIS Submission Processing sites to record that Date.
        Management’s Response: IRS management agreed with this recommendation.
        They stated the addition of an ICT Received Date field is a good idea, and they will study
        the feasibility of adding this additional field to the CIS database. Management also
        agreed with the requirement to use an ICT Received Date stamp and has already updated
        internal procedures to include guidance for date stamping all cases received in the ICT
        unit.


7
 Untimely Processing of Taxpayer Carryback Loss Claims Resulted in Significant Interest Costs (Reference
Number 2006-40-139, dated August 31, 2006).
                                                                                                           Page 8
                           The Correspondence Imaging System Helps
                       to Manage Taxpayer Correspondence, but There Are
                                Delays in the Scanning Process



Recommendation 2: To help the Accounts Management function better monitor
correspondence inventory and facilitate timely customer service, the Director, Accounts
Management, should expand the 14 calendar-day requirement for scanning and controlling
taxpayer correspondence to include all documents input to the CIS.
       Management’s Response: IRS management did not agree with this
       recommendation, responding that it would not be productive to establish a firm
       requirement to control all cases within 14 calendar days when there will be times when
       the requirement cannot be met. Management stated their commitment to timely control
       cases was evident in the new procedure they have implemented to route all amended
       returns that clearly include carryback loss claims directly to the Accounts Management
       function, and that they will continue to emphasize the importance of controlling all cases
       within 14 calendar days. Management stated they believe this procedure, as well as
       emphasis on controlling cases within 14 calendar days as much as possible, will
       effectively facilitate timely customer service.
       Office of Audit Comment: We agree that the new IRS procedures to route all
       carryback claims directly to the Accounts Management function should reduce the time
       to work these claims. While we generally concur with IRS management’s plans to
       emphasize the controlling of all cases within 14 calendar days as much as possible, we
       continue to believe that making this a written requirement would emphasize
       management’s commitment to timely customer service and ensure all employees are
       aware of the importance of timely case control. Knowing the volume of cases could at
       times preclude meeting this requirement does not diminish the need to set this
       expectation clearly. The IRS did not state specifically how it intended to emphasize the
       importance of timely controlling cases, but we encourage the IRS to make this a written
       expectation, so all employees are aware of this important criteria and management can
       monitor whether this requirement is being met effectively.
The Correspondence Imaging System Includes Inaccurate and
Incomplete Data
The CIS is designed to prioritize cases using codes that specify case priority and category. For
example, high-dollar carryback loss claims are prioritized over taxpayer correspondence and
internally generated notices because of the potential for payment of additional interest if the
carryback loss refunds are not issued timely. Disaster claims are also prioritized to address
taxpayers’ emergency situations.
In our judgmental sample of 193 cases, 21 (11 percent) had inaccurate information on the CIS
database, with some cases having multiple inaccuracies. The most common inaccuracies were:




                                                                                           Page 9
                           The Correspondence Imaging System Helps
                       to Manage Taxpayer Correspondence, but There Are
                                Delays in the Scanning Process



   •   Incorrect category code – 10 cases.
   •   Incorrect priority code – 9 cases.
   •   Incorrect document type – 6 cases.
   •   Incorrect IRS Received Date – 5 cases.
Moreover, in 14 (7 percent) of the 193 cases, some documents for the case had not been scanned.
In 11 of the 14 cases, the scanned image of the envelope was missing. The IRS uses the
postmark on the envelope to determine the date on which a taxpayer submitted the
correspondence, and CIS guidelines require all envelopes to be scanned. The postmark date can
be significant if the correspondence relates to a time-sensitive issue (e.g., a request for refund
must be made within 3 years of the due date of the original tax return). Without the postmark,
the IRS may not know if the request was made timely. In the three remaining cases, parts of the
related documentation, such as the second page of a letter, were missed in the scanning process.
Original documentation may be destroyed as soon as approximately 1 week after scanning, so it
is not possible for a customer service representative to obtain missing information without
requesting a duplicate from the taxpayer. Contacting the taxpayer to obtain the missing
information will delay any necessary corrective actions and creates additional burden on the
taxpayer.
Inaccurate information on the CIS database can prevent cases from being worked timely and/or
in the proper order. For example, a high-dollar carryback loss claim could be input with the
wrong priority code (or no priority code at all). As a result, the claim may not be worked timely,
which could result in a substantial interest cost to the IRS. Documents not scanned may cause
miscommunication or unnecessary contact with taxpayers for the missing information.
Management Actions: At the time of our review, there was no formal quality review process in
the ICT units to ensure quality results. However, Accounts Management officials have agreed to
initiate a formal quality review process that includes a review of cases to help ensure accuracy of
CIS information and completeness of cases. We believe this quality review process should
address the conditions we identified.
Electronic Submission of Taxpayer Correspondence Would Help
Improve the Efficiency and Timeliness of Case Resolution
One of the primary functions of the CIS is to convert paper correspondence into electronic
images that are easier and faster to control and resolve. However, delays in scanning documents
have resulted in the CIS not achieving all of its intended benefits. As an alternative to the
manual scanning portion of the CIS process, the IRS could allow taxpayers to submit
correspondence electronically via the IRS Internet web site (IRS.gov), thereby reducing or
eliminating the need to handle and scan paper documents. This would help to further the
President’s goal of expanding electronic government (E-Government Act of 2002) to improve

                                                                                           Page 10
                                   The Correspondence Imaging System Helps
                               to Manage Taxpayer Correspondence, but There Are
                                        Delays in the Scanning Process



how the Federal Government provides services to citizens.8 The IRS Transcript Delivery System
was fully implemented in May 2005, as an e-service, for use by both internal and external users.
Additionally, on July 31, 2006, the IRS announced implementation of a new online payment
agreement application through national partnerships with the professional tax community.
In addition to saving considerable time and cost for the IRS to resolve taxpayer correspondence,
the electronic submission of correspondence would eliminate the need for taxpayers to print and
mail correspondence if they so chose. It would also allow taxpayers to receive immediate
acknowledgement that the IRS had received their inquiries or claims. Further, over 50 percent of
taxpayer correspondence that must be scanned involves taxpayer-submitted forms such as
Form 1040X. The IRS has consistently encouraged the electronic transmission of other types of
forms because of the reduced processing cost. Figure 2 shows the types of CIS correspondence
received by category.
                                   Figure 2: CIS Cases by Category Code
                                          Other
                   Debtor Master File
                                           8%
                    Claim (Treasury
                    Offset Program)
                           7%



                    Duplicate Filing
                         10%
                                                                                     Individual Amended
                                                                                    Return (Form 1040X)
                                                                                             50%




                    Taxpayer Request
                     for Adjustment
                          25%


           Source: Treasury Inspector General for Tax Administration analysis of CIS data - November 2003
           through May 2006.

Problems related to timeliness and accuracy could be alleviated and the substantial amounts of
work involved to prepare documents for scanning could be eliminated if correspondence could
be submitted via IRS.gov. The IRS could develop a standardized input form on which taxpayers
would provide the necessary identification and control data fields (such as Social Security
Number, name, tax period, etc.) and the specific questions and/or information they need to


8
    Pub. L. No. 107-347, 116 Stat 2899.
                                                                                                          Page 11
                           The Correspondence Imaging System Helps
                       to Manage Taxpayer Correspondence, but There Are
                                Delays in the Scanning Process



convey to the IRS. This information could then be downloaded directly into the CIS, thereby
eliminating the need for staff to open mail, transfer correspondence, and scan documents.
Moreover, when the IRS’ new modernized computer systems have the capability, taxpayers
could file adjustments and claims on Forms 1040X and 1045 electronically, further reducing the
amount of paper documents that need to be scanned manually into the CIS.
Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should consider
allowing taxpayers to submit correspondence electronically.
       Management’s Response: IRS management responded that although it agreed in
       concept with this recommendation, it is not feasible now or in the foreseeable future.
       Management stated such a capability would require extensive modification of all existing
       internal processes and systems related to taxpayer correspondence. It would also require
       the IRS to address related privacy and security issues and to incorporate new technical
       requirements and solutions into its Modernization Vision and Strategy. Current
       Modernization plans do not include this capability, and the IRS’ pursuit of other priority
       projects will likely prevent consideration of such a system for the foreseeable future.
       Office of Audit Comment: We acknowledge that there will be some technical and
       privacy considerations to address to allow taxpayers to correspond directly with the IRS,
       but we disagree with management’s assertion that this concept is not feasible now or in
       the foreseeable future. The IRS should be striving to make it as easy as possible for
       taxpayers to correspond with the IRS. Providing a method for customers to submit
       questions and correspondence via a webpage is a common application for banks and
       other financial institutions. The IRS currently offers certain tax practitioners the ability
       to submit correspondence and account questions electronically through its e-Services
       application. We understand that offering this service to all taxpayers would involve
       overcoming technical barriers, but we would expect the IRS to be pursuing this ability as
       part of its Modernization strategy, especially with its push to get more taxpayers to use
       the IRS.gov web site. We encourage the IRS to reconsider and take action to include this
       type of capability in its Modernization strategy.




                                                                                           Page 12
                            The Correspondence Imaging System Helps
                        to Manage Taxpayer Correspondence, but There Are
                                 Delays in the Scanning Process



                                                                                     Appendix I

        Detailed Objectives, Scope, and Methodology

 The overall objectives of this review were to determine the timeliness and accuracy of processing
 taxpayer correspondence and other cases through the CIS and to determine whether the System is
 functioning as intended. To accomplish these objectives, we:
  I.    Reviewed the CIS Business Case to identify how this project meets the objectives of the
        President’s agenda for electronic government (i.e., offering more services online and
        organized around customer needs).
        A. Reviewed the Business Case for any mention of electronic government or its general
           objectives, identified any planning for the CIS that is consistent with the objectives of
           electronic government, and held discussions with System administrators and
           Information Technology Services function personnel to determine whether there are
           plans for future changes to the CIS to meet the objectives of electronic government.
        B. Evaluated the composition of cases currently being handled by the CIS to determine
           whether certain types of cases could be accepted electronically from taxpayers.
        C. Determined whether the IRS has discussed or developed methods to work CIS cases
           using an email site for taxpayer-initiated correspondence and electronic filing of the
           Amended U.S. Individual Income Tax Returns (Form 1040X).
 II.    Determined the method used to measure the success of the CIS Pilot prior to its
        nationwide rollout.
        A. Interviewed Wage and Investment Division management officials to determine the
           initial objectives for the System and to assess implementation progress.
        B. Requested documentation of the project plan that includes the Business Case for the
           development of the CIS, determined the basis used by management to measure the
           success of the System’s implementation, and reviewed documentation showing the
           results produced, which prompted the rollout to additional Submission Processing
           sites.
        C. Reviewed documentation of problems encountered and proposed solutions, including
           the resolution of problems identified previously by the IRS.
III.    Evaluated the timeliness of preparing Adjustments function receipts for CIS processing.
        A. Conducted a walk-through of the CIS scanning units in three Submission Processing
           sites (located in Atlanta, Georgia; Austin, Texas; and Fresno, California) to observe

                                                                                            Page 13
                               The Correspondence Imaging System Helps
                           to Manage Taxpayer Correspondence, but There Are
                                    Delays in the Scanning Process



             the age of unprocessed cases and to identify any unique procedures used to expedite
             processing, and interviewed IRS personnel at the three CIS scanning units to identify
             common impediments that may delay the scanning process or details on unique
             procedures to expedite processing.
        B. Selected a judgmental sample of cases that were to be input to the CIS.
             1. For each of the 3 Submission Processing sites visited, selected a judgmental
                sample of 30 or more cases in the Receipt and Control Units after secondary
                sorting, plus 30 or more additional cases from the Entity Unit in the Code and
                Edit function that handles the simple amended tax returns, and photocopied the
                entire cases. Judgmental sampling of 193 cases (60 cases from Atlanta; 73 cases
                from Austin; and 60 cases from Fresno) was used because the population size
                could not be determined.
             2. Recorded information and data for each case. If any processing problems or
                delays were noted, we attempted to determine the cause and whether any cases in
                the selected samples were not processed into the CIS.
        C. If there was a significant delay in processing priority cases into the CIS that affected
           the ability of customer service representatives to work the cases, determined the
           monetary impact of the delays.
             1. From the CIS database, selected a statistically valid sample of cases (carryback
                loss claims) with “type” codes that indicated expedited processing was used to
                preclude or reduce the payment of interest. We selected a sample of 138 cases,
                using a 95 percent confidence level, a +5 percent precision rate, and an expected
                error rate of 10 percent.
             2. Determined whether interest was paid for each case and whether there was a delay
                in controlling the cases.
        D. Analyzed CIS data for all cases (1,052,350) received between October 1, 2005,
           and March 31, 2006, by the 4 Submission Processing sites1 (located in
           Andover, Massachusetts; Atlanta, Austin, and Kansas City, Missouri) that had been
           using the System since at least April 2005.




1
  The Fresno Submission Processing Site began using the CIS after April 2005; we omitted it from our analysis due
to the short time prior to the October 1, 2005, starting date for the letters we reviewed.
                                                                                                         Page 14
                                The Correspondence Imaging System Helps
                            to Manage Taxpayer Correspondence, but There Are
                                     Delays in the Scanning Process



IV.      Evaluated the accuracy of CIS-processed records for Adjustments function receipts. For
         each case selected in Step III.C., we determined whether the image was legible, all
         pertinent information was included with the case, and the case had been identified by the
         appropriate type code.
V.       Determined whether collection activity was delayed and, where appropriate, whether
         interim letters were issued as required for CIS cases.
         A. For each case in the sample selected in Step III.C., determined whether an Integrated
            Data Retrieval System2 action to delay collection activity should have been input and
            whether (and how many) interim letters should have been issued (and when).
         B. Compiled the results and determined whether there was a significant problem with
            either sending interim letters or delaying collection activity on open cases.
         C. Analyzed CIS data for 153,470 taxpayer-generated letters received between
            October 1, 2005, and March 31, 2006, by the 4 submission Processing Sites3 (located
            in Andover, Atlanta, Austin, and Kansas City) that had been using the System since at
            least April 2005.
VI.      Determined whether closed CIS cases are available from the archive system when needed
         and the archive system is reliable. We interviewed IRS management officials to
         determine where and how the archive system is maintained.
 Data Reliability
 We assessed the CIS data obtained as sufficiently reliable for analysis because the records
 generally contain the same information as that shown by a limited number of paper cases we
 compared to printouts of information on the CIS. For 193 cases, we evaluated 7 data elements
 (a total of 1,351 data elements) and found 33 inaccuracies (2.5 percent). We also found no
 significant gaps in the data, such as days for which data were missing. To date, the Treasury
 Inspector General for Tax Administration had not conducted a systems audit of the CIS.
 However, we did note that information in the database was inconsistent with that stamped on the
 paper cases (such as dates) or deemed proper (such as priority codes) by procedure for at least
 1 data field in approximately 11 percent of the cases in our judgmental sample of 193 cases. We
 also noted a small percentage of cases in our database analysis that contained inconsistent
 information, such as closed dates preceding received dates.




 2
   The Integrated Data Retrieval System is the IRS computer system capable of retrieving or updating stored
 information; it works in conjunction with a taxpayer’s account records.
 3
   The Fresno Submission Processing Site began using the CIS after April 2005; we omitted it from our analysis due
 to the short time prior to the October 1, 2005, starting date for the letters we reviewed.
                                                                                                          Page 15
                         The Correspondence Imaging System Helps
                     to Manage Taxpayer Correspondence, but There Are
                              Delays in the Scanning Process



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Tracy K. Harper, Lead Auditor
John Hawkins, Senior Auditor
Andrea R. McDuffie, Auditor
Nelva A. Usher, Auditor
Joseph C. Butler, Information Technology Specialist




                                                                                   Page 16
                         The Correspondence Imaging System Helps
                     to Manage Taxpayer Correspondence, but There Are
                              Delays in the Scanning Process



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 17
           The Correspondence Imaging System Helps
       to Manage Taxpayer Correspondence, but There Are
                Delays in the Scanning Process



                                                 Appendix IV

Management’s Response to the Draft Report




                                                          Page 18
    The Correspondence Imaging System Helps
to Manage Taxpayer Correspondence, but There Are
         Delays in the Scanning Process




                                                   Page 19
    The Correspondence Imaging System Helps
to Manage Taxpayer Correspondence, but There Are
         Delays in the Scanning Process




                                                   Page 20
    The Correspondence Imaging System Helps
to Manage Taxpayer Correspondence, but There Are
         Delays in the Scanning Process




                                                   Page 21
